OFFICE OF INSPECTOR GENERAL


Audit of the African Development
Foundation’s Financial
Statements for Fiscal Years 2006
and 2005
AUDIT REPORT NO. 0-ADF-07-002-C
November 15, 2006




WASHINGTON, DC
Office of Inspector General

November 15, 2006

MEMORANDUM

TO:                  ADF President, Rodney MacAlister

FROM:                AIG/A, Joseph Farinella /s/

SUBJECT:             Report on Audit of the African Development Foundation’s Financial Statements for
                     Fiscal Years 2006 and 2005 (0-ADF-06-002-C)

Enclosed is the final report on the subject audit. We contracted with the independent certified
public accounting firm of Leonard G. Birnbaum & Company, LLP (LGB) to audit the financial
statements of the African Development Foundation as of September 30, 2006 and 2005 and for the
years then ended. The contract required that the audit be performed in accordance with generally
accepted government auditing standards; generally accepted auditing standards; Office of
Management and Budget (OMB) Bulletin 06-03, Audit Requirements for Federal Financial
Statements; and the Government Accountability Office/President’s Council on Integrity and
Efficiency Financial Audit Manual.

In its audit of the African Development Foundation (ADF), LGB found that;

• the financial statements were fairly presented, in all material respects, in conformity with U.S.
generally accepted accounting principles,

• ADF had effective internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations,

• ADF’s financial management systems substantially complied with the requirements of the
Federal Financial Management Improvement Act of 1996 (FFMIA), and

• no reportable noncompliance with laws and regulations it tested.

In connection with the audit contract, we reviewed LGB’s report and related documentation.
Our review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, opinions on ADF’s financial statements or internal control or on whether ADF’s
financial management systems substantially complied with FFMIA; or conclusions on
compliance with laws and regulations. LGB is responsible for the attached auditor's report
dated November 3, 2006 and the conclusions expressed in it. However, our review disclosed
no instances where LGB did not comply, in all material respects, with applicable standards.


U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
The report does not contain recommendations. ADF comments to the auditor’s report are
included in Appendix I.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of
LGB during the audit. If you have questions concerning this report, please contact Andrew
Katsaros at (202) 712-4902.
CONTENTS
Message from the President .......................................................................................... 1

Management’s Discussion and Analysis...................................................................... 4

Independent Auditor’s Reports ................................................................................... 26

Financial Statements

    Balance Sheets ......................................................................................................... 31

    Statements of Net Cost ............................................................................................. 32

    Statements of Changes in Net Position .................................................................... 33

    Statements of Budgetary Resources ........................................................................ 34

    Statements of Financing ........................................................................................... 35

    Notes to the Financial Statements ............................................................................ 36

Appendix I - Management Comments......................................................................... 41
   AFRICAN DEVELOPMENT FOUNDATION

PERFORMANCE AND ACCOUNTABILITY REPORT

            FISCAL YEAR 2006




    Leonard G. Birnbaum and Company, LLP
             6285 Franconia Road
            Alexandria, VA 22310
                (703) 922-7622
                        AFRICAN DEVELOPMENT FOUNDATION
                          MESSAGE FROM THE PRESIDENT

It gives me great pleasure to report that FY 2006 has been a very successful year for the African
Development Foundation (ADF). Since beginning my tenure as the President of ADF, in
February of this year, I have become increasingly impressed with ADF’s track record of
delivering on its mandate to help the poorest of the poor in Africa. ADF is an agency that knows
how to accomplish its mission.

Even the most efficient agency can make improvements, and I saw some areas that I wanted to
address as soon as I arrived. One of the most important initiatives I put into place as soon as I
took office was an updated, revamped safety and security policy that applies to our field
operations as much as to our headquarters. The health and safety risks associate with ADF’s line
of business cannot be overstated. As the agency head, I believe it is my duty to ensure to the
extent possible that everyone in the extensive ADF family enjoy and safe and healthy work
environment. The new policy is innovative and progressive, bringing best practices to our clients
and customers as well as our staff.

Another important initiative undertaken this fiscal year is the creation of the Africa Regional
Office (ARO) in Accra, Ghana. Headed by a seasoned ADF senior manager, the ARO, when
fully staffed, will provide essential on-the-ground assistance to field staff and grantees. With so
much of ADF’s methodology predicated on working with grantees all along the way, having a
presence on the continent is absolutely essential.

ADF fosters hope, growth and goodwill in Africa. Its programs advance two major U.S.
Government (USG) objectives:
   ¾ stimulating Africa’s economic growth, particularly in terms of building on the success of
      the Africa Growth and Opportunity Act (AGOA); and
   ¾ consolidating progress in fragile states.

Furthermore, ADF’s major country programs align with those African countries that the
Administration has identified as USG priorities.

   ¾ In Nigeria, Ghana, Zambia, Tanzania and Uganda, ADF concentrates its investment to
     develop small and medium-sized, African-owned enterprises and to help small farmers
     diversify production into high value cash crops for the global market.




                                                 1
   ¾ In Liberia and Rwanda, ADF’s programs foster hope and promote growth needed for
     peace and stability.

   ¾ In Guinea, Northern Nigeria, Mali, Niger, Senegal, ADF’s programs help advance the
     Administration’s efforts to foster goodwill with predominately Muslim countries and
     alleviate poverty as a breeding ground for radical Islamic fundamentalism.

ADF has proven its effectiveness and demonstrated its uniqueness and impact. We had some
noteworthy accomplishments during this past year.

   ¾ We are nimble and have shown how we can quickly respond to USG priorities. Within
     13 days of being invited by the new Head of State of Liberia to consider opening a
     program there, and with the encouragement of the President’s National Security Advisor
     for Africa, ADF was on-the-ground planning for a new country program. In less than six
     months, we established in-country operations and have designed and funded eight
     projects to help rebuild the Liberian private sector and demonstrate the responsiveness of
     our government.

   ¾ ADF was rated as fully “effective” by OMB in the PART assessment, the highest rating
     available, which is received by only 11 percent of all USG agencies and only five percent
     of grant programs. Nonetheless, we are not “resting on our laurels”; ADF’s Board of
     Directors is committed to further strengthening our program performance and operations.
     Towards that end, ADF undertook a fundamental restructuring and set up its African
     Regional Office in Accra, Ghana, this year.

   ¾ ADF continues to demonstrate that it can help small African producers take advantage of
     AGOA and access global markets with quality products. Under our new Buyer Linkages
     Program, women in both Ghana and Tanzania are producing baskets that will be featured
     in Target stores across the United States as part of their annual “Global Bazaar.”
     Similarly, we are negotiating with Cargill to buy organic cotton from smallholders
     supported by ADF in Zambia.

   ¾ As a testimony to its effectiveness, ADF continues to expand its strategic partnerships
     with African governments and private companies, requiring matching contributions for
     all new country programs. No other relief or development agency can boast of such an
     approach being central to its business model. It not only maximizes the impact of USG
     resources, but it also provides ADF opportunities to influence African development
     priorities and to encourage greater corporate social responsibility. This year, ADF
     entered into two new partnerships, worth $2.0 million annually, with multinational
     corporations involved in extractive industries.

The African Development Foundation is an integral part of achieving U.S. priorities in Africa.
ADF has produced significant results, with relatively small appropriations. The Foundation is
being recognized – within the development community, in the Administration, and in Congress –
as one of the most distinctive and effective foreign assistance programs we have. Moreover, it
serves as a powerful example of both the compassion and the innovation of the American people.



                                               2
I am pleased to submit the FY 2005 Performance and Accountability Report for the African
Development Foundation (ADF). The financial statements and the performance results data are
complete, reliable and in accordance with the Office of Management and Budget (OMB)
requirements and in conformity with generally accepted accounting principles. ADF has
appropriate management controls in place to ensure that all internal controls are operating in
accordance with applicable policies and procedures and are effective in meeting the requirements
imposed by the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial
Management Improvement Act (FFMIA).

Signed:

/s/

Rodney J. MacAlister
President




                                                3
                      AFRICAN DEVELOPMENT FOUNDATION
                    MANAGEMENT'S DISCUSSION AND ANALYSIS

About the African Development Foundation

Congress established the African Development Foundation (ADF) in 1980 as a U.S. Government
corporation dedicated to promoting grassroots development in Africa. ADF provides grants to
private enterprises and other non-governmental organizations in Africa. The usual maximum
grant size is $250,000, but ADF can fund larger projects as rare exceptions, with the approval of
the Board of Trustees and notification of Congress. The usual maximum grant duration is five
years, but may extend to seven years in some circumstances. ADF

      Finances sustainable poverty alleviating initiatives that are conceived, designed, and
       implemented by Africans and aimed at enlarging opportunities for community
       development;

      Expands the participation of Africa’s poor in the development of their countries; and

      Builds sustainable African institutions that foster development at the grassroots level.


The African Development Foundation mission is to “grow” small African businesses and
empower local communities to take control of their own development – from the bottom-up. Its
assistance enables informal enterprises to move into the formal economy, small businesses to
grow into robust enterprises that can produce high quality products as substitutes for expensive
imports and for regional and global markets, poor farmers to produce nontraditional high-value
cash crops, and capture additional revenue through processing prior to export.

The agency’s program is highly complementary to other USG development assistance, but
ADF’s model is unlike any other currently in the market.

   ¾ ADF’s approach is rigorous and holistic; it works with the prospective clients to assess all
     aspects of its operations, diagnose constraints, identify growth opportunities, and then
     provides a comprehensive, integrated package of investment capital, technology, training,
     technical assistance and market support tailored to a specific enterprise or industry.

   ¾ ADF uniquely blends the strongest aspects of private sector venture capital and donor
     philanthropy in its approach. Its small grants do not over-extend a growing business too
     soon.

   ¾ ADF initiated the concept of the “community reinvestment grant” or CRG. Grantees
     commit to reinvesting a portion of their profits to support community development
     projects. This required contribution to a local development trust provides a strong
     commercial orientation to ADF’s support, and it enables the grantee to establish “credit-
     worthiness” to subsequently access commercial credit.




                                                 4
   ¾ Working directly with the enterprise, rather than through government agencies or
     international nongovernmental organizations (NGOs), private voluntary organizations
     (PVOs) or consulting firms, means that 100 percent of the grant goes directly to the
     recipient.

As the international community rallies to help reduce poverty and promote broad-scale economic
growth in Africa, it is recognized that all too little of external funding is actually getting to the
grassroots. In contrast, the African Development Foundation can demonstrate tangible,
measurable outcomes, which are directly attributable to its support. ADF grows sustainable,
indigenous businesses that have an economic impact that far surpasses the original value of the
grant.

The Foundation has made year-on-year improvements in virtually all key program performance
indicators. As a testament to the Foundation’s sound strategic planning, effective performance
management, and consistently strong results, the Office of Management and Budget rated the
agency fully “effective,” after completing the comprehensive Program Assessment Reporting
Tool (PART) in FY 2005. This is its highest rating and is a significant accomplishment, given
that only 11 percent of federal agencies, and a mere 5 percent of grant-making programs, receive
it. (ADF’s PART assessment for FY 2006 is not included here because the ratings process had
not been completed at the time of printing.)

One aspect of ADF’s program structure that makes it significantly different from other
development agencies is its strategic partnership program. Because of the Foundation’s high
impact and unique approach, both African governments and large, socially responsible
corporations are seeking to partner with ADF and contribute their own capital funds to the
Foundation to match appropriated funding. The Foundation already has signed Memoranda of
Understanding with a dozen entities to contribute a total of $13.5 million. ADF has received five
additional partnership proposals, which it expects to conclude during FY 2007, totaling $5.0
million more. As a result of these strategic partnerships, ADF leverages a 1:1 match in funding
for the virtually all of its projects. This is not “parallel funding;” these are outright contributions
made to the U.S. Government. Thus, ADF effectively doubles appropriated dollars through
these partnerships.

During FY 2006, the Foundation’s Board of Directors and management have undertaken several
important steps to enable the agency to operate more efficiently:
   ¾ Created a new management structure for headquarters and is now instituting a carefully
       redesigned field structure, to strengthen all aspects of operations and to ensure that
       leadership and management are closer to our field operating units;
   ¾ Developed a new grant mechanism to support business start-ups and fledgling companies
       and a “step-up” approach for incrementally growing businesses;
   ¾ Formulated a new corporate strategy that provides a stronger, clearer program focus and
       reflects the Foundation’s unique purpose, mandate and approach;
   ¾ Devised a classification of countries to prioritize programming; and
   ¾ Revised almost all ADF policies and procedures to enhance efficiency and effectiveness.




                                                   5
Performance Highlights

ADF’s performance results for FY 2006 will not be available until the end of November.
Because ADF provides grants to small African entities that are often located in remote locations,
the task of gathering and analyzing fiscal year end performance data cannot be achieved in time
for publication in the PAR. A detailed discussion of the FY 2005 performance targets and
results is located in the performance section, below.

Comparative information on performance results from FY 2001 through FY 2005 is provided
below:

Performance Result Trends, Five-Year Trends (cumulative numbers for active projects)

Performance             FY 2001                FY 2002               FY 2003        FY 2004           FY 2005
Indicator
Enterprises             47,049                 86,180                80,946         95,176            108,341
assisted
Owners and full-        36,457                 96,854                112,802        115,827           114,597
time workers in
assisted enterprises1
Women as a percent      56.8%                  58.1%                 48.2%          75.6%             At least 64.9%
of owners and
workers in assisted
enterprises2
Enterprises with        54,099                 65,319                67,893         84,925            Indicator
loans3                                                                                                discontinued
Cumulative value of     Indicator not in use                         $15.127        $17.250           $22.790
loans disbursed                                $11.243 million
                                                                     million                          million
                                                                                    million
Proportion of loans     50.8%                  60.6%                 61.8%          73.2%             Indicator
for women4                                                                                            discontinued
People receiving        66,126                 Indicator             Indicator      Indicator         Indicator
business                                       discontinued          discontinued   discontinued      discontinued
management or
technical training5
Women as a percent      26.3%                  Indicator             Indicator      Indicator         Indicator
of people receiving                            discontinued          discontinued   discontinued      discontinued
business
management or
technical training5
Cumulative sales        $17.457                $53.440 million                                        $54.836 million
                                                                     $28.830        $43.485 million
revenues from active    million                                      million
enterprise projects6

Net income of           $10.528                $14.611               $6.369         $8.807            $4.598 million
grantees during the     million                million               million        million
year6

1
  Unless actual data were available from grantee records or surveys to support higher numbers,
the most conservative assumption was adopted -- that there was one owner/worker per
enterprise assisted. The actual number for many projects is likely to be substantially higher than
the reported number.
2
  In the absence of information on the gender of the owners and workers, the proportion of
women beneficiaries was assumed to be zero. The actual proportion of women beneficiaries is


                                                                 6
likely to be substantially higher.
3
  In FY 2001, the indicator tracked the number of loans, rather than the number of enterprises
receiving loans. Since microfinance projects typically provide multiple loans to an enterprise,
the current indicator produces lower numbers than the previous indicator and is a more
meaningful measure of program outreach.
4
  This indicator was modified from the proportion of the number of loans that went to women to
women’s proportion of the total value of loans, which is a better measure of gender equity.
5
  This indicator was discontinued since it is not a measure of program results.
6
  For FY 2002 through FY 2004, gross revenues and net income of grantees included the income
received by microfinance institutions. In FY 2005, ADF decided to stop including the income
of microfinance institutions in gross revenues and net income to focus only on enterprise
revenues. If the definitions from previous years had been retained, the gross revenues and net
income in FY 2005 would have been higher than reported here.




                                                7
Performance Result Trends, Five-Year Trends -continued

Performance       FY 2001         FY 2002          FY 2003          FY 2004            FY 2005
Indicator
Export products   4               19               Indicator        Indicator          Indicator
promoted1                                          discontinued     discontinued       discontinued
New production    18              Indicator        Indicator        Indicator          Indicator
and export                        discontinued     discontinued     discontinued       discontinued
trade
arrangements
established2
Cumulative        Indicator not   $7.594           $12.027          $21.530            $33.801
export sales      in use          million          million          million            million
revenues from
active
enterprise
projects
People            35,4            274,041          282,089          320,509            Indicator
receiving AIDS    83                                                                   discontinued
prevention
training
Women as a        57.0            66.8%            64.9%            66.7%              Indicator
percent of        %3                                                                   discontinued
people
receiving AIDS
prevention
training3
Partner           14              13               13               13                 13
organizations
assisted
Host              2               4                1                6                  6
governments or
donors
providing
funding for
strategic
partnerships
Funds from        $0.3            $1.104 million   $0.455           $2.704             $3.541
strategic         64                               million          million            million
partnerships4     mill
                  ion

1
  This indicator was discontinued as a quantitative performance measure since a larger number is
not necessarily better than a more focused program and there were inconsistencies in whether
grantees lumped similar products together or split them into more specific categories.
2
  This was discontinued as a quantitative performance measure since a larger number is not
necessarily better and there were definitional issues about what constitutes a new production or
export trade arrangement.
3
  To produce a conservative estimate of gender equity, it was assumed that all of the beneficiaries
were men if no gender-disaggregated data were available. The actual proportion of women
among these beneficiaries is likely to be substantially higher than reported.
4
  In FY 2005, the indicator was changed from funds leveraged by strategic partnerships (which
may not be received until the following year) to funds received from strategic partnerships
during the year.




                                                       8
ADF Operations

ADF’s operating environment presents many challenges. Ensuring that grantees receive timely
disbursements is one is one such challenge. All grantees are required to establish separate bank
accounts for their ADF grants. Once a disbursement request is approved, the funds are
electronically transferred, in local currency, directly to the grantee’s bank account. Because a
number of intermediary banks may be involved in the process, the time between the release of
funds from the U.S. and the posting of funds to the grantee’s account can be inordinately long.

To help our grantees receive their funds as quickly and efficiently as possible, we document the
flow of funds with written confirmations as the funds move through various financial institutions
until they reach the grantee’s bank. Then, on those occasions when the posting of the grantee’s
funds is delayed, he/she can go directly to the bank, armed with the thorough documentation of
the transaction that we provide, and request that the funds be posted immediately. With this
monitoring system, our grantees receive timely payments virtually all the time.

ADF’s grantees are located in over 15 countries, often in remote locations. Effective
communication can be difficult, especially in countries where telecommunications systems are
not reliable. While ADF has an extensive field network working directly with grantees and
ensuring that grantees provide quarterly financial and performance reports, communicating this
information back to ADF Washington can be challenging. During FY 2006, ADF implemented
an updated, web-based grant information system. This will allow local staff to input project-
related directly into the database, which can then be used by headquarters staff to measure
project performance on a much more timely basis.


ADF Quality Assurance, Internal Controls and Legal Compliance

During 2006, ADF made additional improvements in internal controls. Building on the
improvements made to the grant and cooperative agreement audit program in FY 2005, ADF
implemented further refinements this year. ADF restructured its auditor position and filled it with
a highly qualified certified public accountant with a strong government auditing background. The
auditor manages the audit program for project grantees, determines which projects will be audited,
defines the scope of work required for each audit, evaluates the performance of contracted auditing
firms, and authorizes payment to contracted auditing firms. Based on the ADF auditor’s thorough
review of grantee audit results, the agency’s Audit Committee is informed of any material issues
raised by the audit firms. These issues are then tracked by the portfolio managers responsible for
the grantees in question to ensure timely follow up.

As a small agency, ADF has always had strong internal controls. Managers and staff work
closely on all aspects of program management. The relatively small number of transactions has
allowed for 100 percent review and audit virtually all transactions, including travel vouchers,
disbursement requests, and procurements. Nevertheless, in FY 2006, the auditor began a major
initiative to assess risk, test controls, evaluate their effectiveness, and recommend improvements
to ADF’s internal control systems. These actions will not only ensure that ADF has a strong



                                                 9
system in place but will also allow for potential procedural improvements that will lead to a more
efficient use of ADF’s limited resources.

 ADF’s grants database has a full time Grants Database and Operations Manager, who is the
primary person responsible for the continued integrity and security of all grantee administrative
and financial data reported. The financial information contained in the database is reconciled
monthly with the financial information contained in the agency’s core financial system, Oracle
Federal Financials. During the fourth quarter of FY 2006, ADF implemented an updated grants
database with significantly enhanced features. Because the system is web based, ADF’s regional
offices will have access to real time information.

A key to the success of ADF’s methodology is the hands-on approach we take with every grantee.
As soon as grantees receive their first disbursement, the portfolio managers in the Management
Division begin monitoring the grantees that have been assigned to them. They take an active role in
monitoring budget execution, approving disbursements, approving budget shifts, reviewing
expenditure reports, making adjustments to the timing of grantee activity, and even recommending
suspension and termination, if the need should arise.

In FY 2005, ADF eliminated all long-standing material weaknesses related to its core financial
system. ADF’s systems are now fully compliant with all OMB and Treasury requirements.

Identification of Key Factors That Could Affect Achievement of General Goals and Objectives

ADF’s programs are designed to assist “the poorest of the poor in Africa.” Our mandate is to
build a broad base for sustainable economic development in Africa, thereby enabling the people
of Africa to break the vicious cycle of poverty. There are a number of factors that could affect
program goals and objectives. These factors include poor communication systems, poor
infrastructure, unsuitable health conditions, poverty, the threat of civil strife, and political
instability, just to name a few. Despite these challenges, ADF projects have proven to be
highly successful.

Comments on Financial Statements

ADF is pleased to report that in FY 2006 the Foundation continued to receive an unqualified opinion
on all five financial statements from its independent auditors Leonard G. Birnbaum and Company,
and the USAID Office of the Inspector General. Since FY 2001, ADF has received an unqualified
opinion on the Balance Sheet, the Statement of Net Costs, the Statement of Net Position, the
Statement of Budgetary Resources, and the Statement of Financing.

Cost of Operations

Costs associated with program activities increased 7 percent, from $12 million in FY 2005 to
$12.9 million in FY 2006. The increase relates primarily to an increase in grantee expenses. This
is an expected result from prior year increases in appropriations and donations from strategic
partners. As the number of grants supported grows, expenses will increase gradually over the
average five-year period of the typical ADF grant.



                                                  10
Operating expenses increased as well. This is primarily due to a combination of factors including,
additional staffing, higher payroll costs due to COLAs and with-in grade increases, additional
technology expenditures, and the establishment of the ADF Africa Regional Office in Accra,
Ghana.

Appropriations

ADF’s appropriations are available for two years. Appropriations increased from $19 million in
FY 2005/2006 to $23 million in FY 2006/2007. While obligations incurred were consistent
between FY 2005 and FY 2006, the impact of the increase for FY 2006/2007, will be seen in FY
2007, when ADF will use the carryforward funds for additional grant obligations.

Limitations of Financial Statements

ADF's principal financial statements have been prepared to report the financial position and
results of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b).

While the statements have been prepared from books and records in accordance with generally
accepted accounting principles (GAAP) for federal entities and the formats prescribed by the Office
of Management and Budget, the statements are in addition to the financial reports used to monitor
and control budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                  11
                        AFRICAN DEVELOPMENT FOUNDATION
                        ANNUAL PERFORMANCE INFORMATION

ADF has clearly articulated purpose, vision and mission statements:

Purpose: Fostering hope, growth and goodwill in Africa
Mission: To be a leader in promoting high impact activities and innovative approaches to
improve the lives of Africans.
Vision: To stimulate grassroots development and empower the poor in Africa by growing
profitable businesses and sustainable social enterprises.

ADF’s strategic goals and objectives are designed to ensure that there is a system in place to
track and measure agency performance against the purpose, mission and vision.

ADF’s Program and Strategic Goals and Objectives

Goal I: Invest in small businesses and social enterprises that create jobs, generate income,
and improve the lives of the poor.

Despite recent, impressive growth and development, sub-Saharan Africa still lags behind all
other regions of the world. Every significant socio-economic indicator (GNP per capita, life
expectancy, infant and child mortality, adult literacy, primary and secondary school enrollment,
total fertility) shows that the welfare of the people of Africa is still significantly worse than every
other region.

ADF funds projects that directly and significantly improve the livelihoods of low-income people.
The Foundation stresses innovation and rigor in its projects to create jobs and increase incomes
for the poor. ADF seeks to stimulate growth on a large scale by demonstrating successful
models that can be replicated by African governments, large bilateral and multilateral donors,
and private voluntary organizations.


Strategic Objective 1: Enhance the growth of African- owned small and medium size
enterprises, improve their access to investment, and increase their participation in regional and
international trade
                  “Trade is the great engine of economic progress…
               The peoples of Africa have been left out long enough.”
                                   President George W. Bush


Building on more than 20 years of experience in grassroots development, the Foundation has
formulated a high impact strategy to help small and medium sized, African-owned enterprises
grow, develop new products, and take advantage of opportunities in both the local and global
markets.

SMEs play two crucial roles in Africa’s economic development:



                                                   12
   ¾ Smaller businesses and agricultural producer groups provide a high percentage of
     employment of the poor.
   ¾ A more limited set of SMEs has the potential to grow rapidly into globally competitive
     companies that can add value to Africa’s exports and provide low-cost goods and
     services to Africa’s domestic markets.

The African Growth and Opportunity Act of 2000 (AGOA) specifically notes the important role
of ADF in developing and implementing strategies for promoting participation of small-scale
enterprises and informal sector groups such as farmer cooperatives and artisans in trade and
investment activities. ADF’s investment in growing African businesses and promoting their
participation in trade is distinct but highly complementary of assistance provided by USAID and
the Millennium Challenge Corporation.

ADF helps applicants conduct thorough assessments of their business constraints and
opportunities and then assists them to develop their funding proposals into business plans with
full financial projections, marketing strategies, training plans, and implementation plans. ADF
provides them an integrated package of investment capital, training, and technical, managerial
and marketing assistance. Once a project is funded, ADF provides assistance in implementation,
upgrading of management information systems, monitoring, and reporting through its network of
non-governmental Partner Organizations in Africa. More specialized African technical service
providers are brought in where necessary.

Through its direct assistance, ADF is helping small and medium sized, African-owned
enterprises grow, develop new products, and take advantage of opportunities in both the local
and global markets. The Foundation’s holistic approach is supporting AGOA objectives and
demonstrating that small-scale African enterprises and cooperatives can diversify production,
meet international standards, and successfully compete in the global economy.

ADF has on-going trade and investment (T&I) programs in Uganda, Tanzania, Namibia, Ghana
and Zambia, focused on assisting small-scale enterprises and cooperatives to produce, process
and export more than two dozen products, including clothing and fabric, silk, dried fruit and
juices, vegetables, processed grains and legumes, meats, hides and leather products, butter, fish
products (for example Nile perch and rock lobster), various spices (paprika, chili peppers,
vanilla), honey, sugar, tea, coffee, sea salt, ceramics, and solar-powered hearing aids. Many of
these products are certified organic and, consequently, fetch a premium price for the producer.

ADF has developed a business model that has uniquely positioned the agency as a leading
catalyst for enterprise development in Africa. This includes the following:
    • Deep on-the-ground operations.
    • Country specific investment strategies
    • Industry-specific investment strategies
    • An integrated package of technical, marketing and managerial assistance and funding
    • Commercial discipline through reimbursable grants
    • Host government matching, dollar-for-dollar contributions
    • Private sector partnerships



                                                 13
In FY 2006, ADF funded 32 new small and medium-sized enterprise projects, and 22 new trade
and investment projects in 10 countries for a total of $6.8 million.

Strategic Objective 2: Expand small farmer production of high value crops, value-added
processing of agricultural goods, and access to local and global markets

Poverty in Africa is most pervasive in rural areas. With as many as three quarters of the
populations in many African countries depending on agriculture for their livelihood, the sector is
truly the backbone of most economies. Enabling small farmers to move from subsistence farmer
to production of high value cash crops has tremendous impact on improving the lives of Africa’s
poor, the rural economy, and even the environment. It provides rural families with sorely needed
reliable employment and better incomes. This enables them to buy fertilizer to increase
productivity of staple crops, purchase food they cannot grow, pay school fees and medical costs,
and improve clothing and shelter. Moreover, the agriculture sector has extensive forward and
backward linkages within African economies, so it can provide a significant stimulus to growth
and stability, in rural and urban areas, in formal and informal enterprises.

ADF is stimulating economic growth in rural economies by:

   ¾ Identifying non-traditional high-value crops that have potential on regional and
     international markets

   ¾ Supporting their production by small-scale farmers through provision of training,
     technical assistance and seasonal agricultural credit;

   ¾ Establishing or expanding small-scale agro-processors, through operating capital and
     equipment procurement, and providing them technical and managerial assistance to
     ensure they meet market standards; and

   ¾ Creating new export marketing linkages for regional or international trade

   ¾ By thus working in all phases from farm to consumer, ADF is teaching the principles and
     practices of modern value chain management.

To make export production that benefits low-income producers more feasible, ADF often works
with producer associations or cooperatives that bulk up the production of small-scale producers
and carry out processing and/or marketing activities on their behalf. Producer associations and
cooperatives can channel other support to small-scale producers effectively, for example through
lower cost production inputs through bulk purchases, extension services, market and price
information, and greater bargaining power in price negotiations.

In FY 2006, ADF funded 37 new projects involved in agricultural production or processing in 11
countries for a total of $4.4 million. A portion of these projects with an agricultural orientation
also fall into the small and medium-sized of trade and investment classification.

Strategic Objective 3: Promote innovative community-based solutions to critical social and
economic needs of marginalized communities and peoples.



                                                 14
Strategic Objective 4: Create renewable pools of local capital to fund small businesses and
community initiatives.

Strategic Objectives 3 and 4 work together in finding ways to establish programs within the
community to deal with pressing issues defined by the community. To achieve these two
objectives, the Foundation has initiated a Community Reinvestment Grant (CRG) program,
whereby grant recipients commit to reinvest a portion of their profits into community
development projects within their country. Depending on the level of profitability, the grantee
pledges to contribute up to the full value of the ADF grant. The CRG provides a strong
“commercial” orientation to ADF’s grant program, and it also nurtures a culture of social
responsibility among for-profit businesses in Africa. CRG contributions produce a multiplier
effect for ADF’s initial investment by creating a renewable pool of local capital.

The Foundation is providing intellectual leadership through this innovation. For example, the
International Finance Corporation of the World Bank invited ADF to share its approach and
experience to help it launch a new initiative focused on promoting “social enterprises.” In
Uganda, ADF, its Partner Organization and the Rockefeller Foundation are jointly undertaking a
joint investment program funded, in part, from resources generated under ADF’s program trusts.

Goal II: Expand local capacities to support small businesses and social enterprises

Conventional ways of stimulating economic development through huge infrastructure, large-
scale industries, or expensive international consulting firms have yielded too little benefit for too
few people at high financial and environmental costs. Projects administered by government
agencies and parastatal companies are often inefficient and ineffective. By contrast, ADF works
directly at the grassroots level with private enterprises, producer groups, and community
organizations that assist them.

ADF has extensive experience in participatory, grassroots development strategies that are
appropriate for the types of clients most under-served by conventional foreign aid programs. In
addition to the direct impact of ADF-funded grants on project beneficiaries, ADF strengthens
African institutional and financial capacities to support and sustain grassroots development. It
also seeks to multiply benefits by influencing how government agencies, bilateral and
multilateral donors, development banks, and non-governmental organizations foster economic
development.

Strategic Objective 1: Build sustainable development organizations and business advisory
services that provide technical assistance and training to enterprises and community groups

ADF’s experience in grassroots development showed that there was a great need for local,
African institutions and professionals able to provide high quality, reasonably priced technical
assistance and training to enterprises and community groups. Consequently, during the past four
years, ADF has pursued a unique business model to provide support to its applicants and
grantees. In most countries where it operates, the Foundation is investing in developing the
capacity of indigenous nongovernmental organizations, which serve as its “Partner.” They help



                                                  15
applicants that have passed the initial screening done by an ADF Country Representative to
develop their project ideas into business plans with rigorous financial analyses. After ADF
awards a project grant, the Partner Organizations train the grantees in financial management and
participatory monitoring, visit them regularly to monitor progress and help rectify any
implementation problems, and provide assistance in procurement and in preparation of quarterly
financial and performance reports.

ADF transfers U.S. development expertise to its African Partner Organizations through training
and technical assistance to build their capacity. It also monitors the quality of their services and
helps them plan and develop systems for attracting future funding from other sources. ADF’s
cooperative agreements with Partner Organizations were awarded based on an open, competitive
grant process; they are performance-based and renewable annually for up to five years.

ADF’s Africa Regional Office is working closely with the Partner Organizations to strengthen
their capacities and help them develop self-financing plans.

In FY 2006, ADF funded 14 Partner Organizations and technical assistance providers for a total
of $4.8 million.

Strategic Objective 2: Strengthen the capacity of African business and community leaders to
foster entrepreneurship and social philanthropy and to model transparency and accountability

Under this new initiative, which ADF will develop over the next two years, the Foundation will
mobilize the best local business people to promote entrepreneurship and social philanthropy and
to serve as models of good business practices. Similarly, the Foundation will recruit the most
respected community leaders where ADF operates to promote local initiate and to model
transparency, accountability and integrity.


Strategic Objective 3: Forge strategic partnerships with national and local governments, other
donor agencies, and the private sector to fund programs that support enterprise and community
development

ADF is building innovative partnerships with African governments and international
corporations that can serve as vital sources of capital and technology to expand the impact of the
Foundation’s program.

Because of the Foundation’s high impact, unique approach, both African governments and large,
socially responsible corporations are clamoring to partner with ADF and contribute hard cash to
the Foundation to match appropriated funding. The Foundation already has signed Memoranda
of Understanding with a dozen entities to contribute a total of $13.5 million. These include:
    ¾ Ghana – national government
    ¾ Nigeria – Kano State government and Kaduna State government
    ¾ Botswana – national government
    ¾ Swaziland – national AIDS commission
    ¾ Zambia – national government
    ¾ Cape Verde – national government



                                                  16
   ¾   Mali – national government
   ¾   Senegal – national government
   ¾   Sao Tome – national government
   ¾   Benin – national government
   ¾   Guinea – Global Alumina

The Foundation has received five additional partnership proposals totaling $5.0 million more,
including Esso Exploration in Angola. The following chart provides a complete list of current
partnerships and their funding levels, and the significant success ADF has had in attracting
contributions.




In the context of individual projects, the Foundation also builds linkages between African
enterprises and international business, which can serve as vital sources of complementary capital
and technology for grassroots development, as well as markets for products. Some giants in the
American private sector are seeing ADF’s work as forging key links to markets. We are in
active discussions with Target Corporation, Cargill and General Mills to develop African
enterprises that will be able to produce to international standards and sell, at a fair price, to those
companies.

In all these programs, the Foundation maintains and promotes its core values – transparency,
accountability, sustainability, innovation, grassroots-based and African-owned investments – and
ADF is wholly responsible for assuring accountability for funds, program implementation, and
achievement of targeted results.




                                                   17
In FY 2007, ADF expects to attract $9.75 million in contributions through these strategic
partnerships. These partnerships also provide excellent opportunities for ADF to influence more
broadly national development strategies and program approaches.

Strategic Objective 4: Promote and disseminate international and ADF best practices, lessons
learned, and successful models for African-driven development

Annual Performance Information – FY 2005

As indicated above, FY 2006 performance information will not be available until the end of
November. Provided below is performance information for F 2005

Performance Tracking at ADF

ADF has collected performance results data on the active projects each year since 1999. 1 Due to
changes in program priorities and decisions to focus on the most meaningful indicators that can
be measured reliably many of the indicators used in the annual Assessment of Program Impact
(API) have been modified over this period. The FY 2005 API indicators are similar to those
used in FY 2004, except for a reduction in the number of indicators for microfinance projects
and elimination of indicators for AIDS prevention and mitigation. In FY 2005, ADF decided to
phase out support for these two program areas because many donors and NGOs are devoting
substantially greater resources or more specialized expertise to them and ADF has a greater
comparative advantage in direct support to enterprises at the grassroots level.

Most of ADF’s new program obligations in a year do not lead to grant disbursements until the
following year. Disbursements may continue for five or more years, but a large share of the total
disbursements are typically released by the end of the third year of the project. Initial project
impacts tend to follow disbursements with a lag time of six to twelve months. The impact tends
to grow faster in subsequent years, reaching a maximum in the last year of the project.
Consequently, the performance results reported in the reporting year are mainly an outgrowth of
ADF disbursements over the previous 5 years, rather than the current year.

During FY 2005, ADF underwent its first Program Assessment Reporting Tool (PART) exercise.
ADF worked closely with OMB to develop measurements that would best reflect ADF’s
performance against its strategic objectives. This intensive process allowed ADF to reconsider
all its previous measures in order to develop a core set that would become the basis for future
performance measurement. The exercise was very useful for ADF, and as a result of the hard
work and collaborative effort involved, ADF received a PART score of “effective.”

ADF developed 12 new program performance indicators for PART. Some of the PART
indicators focus on the performance of the grantees’ projects while others relate to the internal
operations of the Foundation. ADF will report the PART indicators annually as part of the

1
  Active projects are grants that were in effect for at least one day during the reporting year and
that have received. disbursements from the Foundation for activities other than ADF-required
training in financial management and reporting.


                                                  18
Federal budget review process. Although ADF will continue collecting the API indicators as
well because the information is useful in assessing the status of individual projects, country
programs, and the overall portfolio, the Foundation’s future performance targets in the budget
documents will be based on the PART indicators.

The API indicators have only included the projects that were active during each year. To address
sustainability and long-term impact, some of the PART indicators are also concerned with
projects that were completed within the previous 3 years. To keep ADF’s costs low for data
collection on the completed projects and minimize the burden on former grantees, Country
Representatives, and Partner Organizations, ADF decided not to collect data on the full set of
API indicators for the completed projects. Information was only collected for the PART
indicators for the completed projects and included whether the assisted enterprises or not-for-
profit activities were still operating, cumulative sales revenues, the amounts and sources of any
follow-on financing obtained, any awards or recognition received, and expansion and replication
activities.

PART Indicators for Active and Completed Projects

In FY 2005, ADF developed 12 new organizational performance indicators for OMB’s PART
analysis, falling into 4 categories: 1) business growth, expansion, and sustainability; 2) resource
mobilization, 3) information dissemination; and 4) operational efficiency. The definitions and
calculations for these indicators are provided below. ADF was able to report results on 10 of
these indicators this year. One of the new indicators is not relevant yet (Enterprise Trust Funds)
since it pertains to an initiative that ADF plans to begin in a later year.

Table 11 summarizes the available data on the PART indicator achievements in the previous year
and the reporting year against the targets for the reporting year. ADF’s PART indicators were
not established until mid-to-late FY 2005. At that time, ADF calculated the FY 2004
performance numbers from the information ADF had collected for the API and Annual
Performance Report to Congress. ADF then set targets for FY 2005 based on the FY 2004
numbers, although the fiscal year was drawing to a close.

Business Growth, Expansion, and Sustainability

1. Revenue Growth: Cumulative increase in the sales of enterprise development projects over
their extrapolated baseline level during the project period and the 3 years following the grant
expiration date (annual).

Calculated as cumulative sales since project starting date minus (baseline sales x years since the
project began) and obtained from grantee progress and financial reports.

2. Investment Multiplier: For every dollar disbursed to enterprise development projects that
were active or have closed within the past 3 years, the cumulative increase in their gross
revenues (sales) over the extrapolated baseline level during the project period and the 3 years
following the grant expiration date (annual).




                                                 19
Calculated as Revenue Growth divided by cumulative disbursements of enterprise projects and
obtained from grantee progress and financial reports.

3. Profitability: Percent of active enterprise development projects that have achieved a positive
net income before income taxes, depreciation, and CRG contributions in the reporting year by
the end of their third year or earlier (long-term).

Calculated as enterprise projects that were profitable and less than 3 years old + enterprise
projects that were profitable and 3 years old or more) divided by (enterprise projects that were
profitable and less than 3 years old + all enterprise projects that were 3 years old or more) and
obtained from grantee progress and financial reports and obtained from grantee progress and
financial reports.

4. Community Reinvestment: Percent of active enterprise development projects that are
current in meeting their cumulative CRG pledges from the end of their third year and onward
(long term).

Calculated as the number of enterprise projects that have made CRG contributions greater than
or equal to their expected CRG contributions to date divided by the number of enterprise projects
with CRGs applicable and provided by ADF’s Management Division from records maintained
by ADF’s Partner Organizations.

5. Sustainability: Percent of completed enterprise development projects or social development
projects that are still operating during the 3 years following expiration of the ADF grant (long
term).

Calculated as the number of the number of projects that closed within the 3 years prior to the end
of the reporting period that were still operating the ADF-funded business or activity divided by
the total number of projects that closed within the past 3 years and obtained through a special
annual data collection exercise.

Information Dissemination

6. Newsletter Subscribers: Total number of voluntary subscribers to ADF’s e-newsletter
(annual).

This information is currently recorded by the Webalizer software. ADF plans to switch to a
competing product, Sawmill, in the near future.

7. Website Usage: Average number of page views of ADF’s website per month (annual).

This information is currently recorded by the Webalizer software. ADF plans to switch to a
competing product, Sawmill, in the near future.

Resource Mobilization




                                                 20
8. Partnership Contributions: Funds received from strategic partnerships during the year as a
percentage of new ADF obligations for development projects (annual).

This information is provided by ADF’s Finance Division from records of new program
obligations and funding contributions received through strategic partnership agreements.

9. Follow-on Financing: Cumulative non-ADF loans, grants, or equity investments received by
active and closed projects from the ADF grant start date through the 3 years following the
expiration of the ADF grant (long term).

This information is obtained through a special annual data collection exercise conducted by
ADF’s Country Representatives with assistance from ADF’s Partner Organizations.

10. Enterprise Trust Funds: Annual non-CRG, private sector investments or contributions for
in-country enterprise trust funds (long term).

Not applicable for FY05. When relevant, will be obtained from trust fund records.

Operational Efficiency

11. Overhead Rate: ADF’s non-program costs as a percentage of (USG appropriations + non-
USG funding contributions received during the year) (annual).

Provided by ADF’s Finance Division from the foundation’s expenditures data recorded in the
general ledger and the Federal appropriations and strategic partnership contributions received

12. Disbursement Efficiency: Median time required between the ADF Country
Representative’s receipt of a grant disbursement request from the partner organization and ADF
transmittal of the funds (annual).

Provided by ADF’s Management Division from the foundation’s electronic database.

PART Indicator Trends and Achievements Versus Targets

PART Indicators      FY 2004             FY 2005              FY 2005           Percent of
                                         Reporting Year       Target            Target
                                                                                Achieved
Revenue growth of $20.5 million          $28.5 million        $23.0 million     144.9%
active and
completed MSE
and T&I projects
w/baseline data
Investment           1.80                1.73                 1.80              96.1%
multiplier of active
and completed
MSE and T&I



                                                21
projects w/baseline
data
Profitability of    65%              30.5%             65%             46.9%
active MSE and
T&I projects
Community           No Data          No Data           No Target       Not applicable
reinvestment
Sustainability of           No Data               57%       No Target    Not applicable
completed projects
E-newsletter                     700            1,640            1,500          109.3%
subscribers
Website usage                24,683           148,963          48,000           310.3%
Partnership                     29%               31%             28%           110.7%
contributions
Follow-on                   No Data     $9.487 million      No Target    Not applicable
financing
Enterprise trust      Not applicable    Not applicable Not applicable    Not applicable
funds
Overhead rate1                  30%               23%             26%           113.0%
Disbursement                45 days           33 days         45 days           136.4%
           1
efficiency
1
 Lower numbers represent better performance under these two indicators, while higher numbers
are best for the other indicators.

ADF exceeded its internal targets for 6 of the 8 PART indicators with established targets for this
reporting year. The number of hits on ADF’s website greatly exceeded the target as a result of
improvements in the website and interest generated by the electronic newsletter. ADF also made
better than expected progress in increasing its disbursement efficiency, reducing its overhead
rate, helping grantees achieve revenue growth, and attracting funding contributions from
strategic partnerships. The investment multiplier indicator was slightly below the target and all
of the variance can be attributed to projects that were completed within the past 3 years. ADF’s
current active projects met the investment multiplier target, reflecting the improvement that has
taken place in the composition and performance of the portfolio.

The percent of projects that have achieved profitability was substantially lower than in the
previous year and, consequently, lagged the target. While exchange rate changes may explain
part of the decrease in the total net income gains of the portfolio in US dollars in FY 2005, it
does not explain the decrease in the percentage of projects that were profitable in local currency
terms. This year, petroleum prices rose sharply and increased many capital and operating costs
across the board. Other changes in world commodity prices and domestic product prices at the
micro level would need to be analyzed to explain the drop in the percentage of profitable
projects. There were some serious country-specific macroeconomic problems, such as Guinea
and Zimbabwe. There was a bad cycle of locusts in Mali and Niger affecting the agricultural
economy. Differences in the weather across years (including droughts and floods) affect the
profitability of many ADF-supported enterprises, directly because of their effects on enterprises



                                                 22
that produce or process agricultural products and indirectly by reducing rural incomes.

By November 20, 2006, when all PART related information is reported to OMB, ADF will have
a better understanding of whether the weaker than expected profitability measure in the reporting
year was a one-time phenomenon or closer to the performance in a typical year than the previous
year’s results.

The completed projects have attracted $4.425 million in follow-on financing from non-ADF
sources. Active projects are known to have received $2.597 million in follow-on financing, but
this is based on very incomplete data (only 2 countries out of 14). The total for active and
completed projects is $7.022 million.

Annual Performance Indicators

The table below shows FY 2005 performance against targets for ADF’s traditional performance
metrics. As noted above, beginning in FY 2006, ADF has decided to continuing measuring
results for these criteria, but no longer set targets.

Since FY 2001, ADF’s budget requests have included information on active project
performance in prior years, as measured by the API indicators and tied the budget request to
specific short-term and long-term performance targets. Some non-project specific targets, such
as funding contributions from strategic partnerships, have been set independently of prior year
performance. Most of the performance targets have been set taking into account the actual
achievements in the most recent prior year available and the ratio of the budget or projected
cumulative disbursements for active projects in the reporting year to those of the prior year.

This is a reasonable approach to setting aggregated portfolio targets, but it assumes that the
composition of projects by strategic objective and country remains roughly the same from one
year to the next. However, ADF is a grant-making organization that primarily responds to
unsolicited proposals from African enterprises for African-led initiatives. 2 The Foundation
funds the best of the submitted proposals without adhering to budget fixed allocations by
country, type of project, location of the project, and the mix of ADF strategic objectives
addressed. Because ADF responds to unsolicited proposals that cannot be predicted in advance,
there are large differences in the mix of projects across years by strategic objective and country.
As a result, the composition of the projects and their impact profile will vary across years,
making comparisons of project achievements and targets somewhat problematic.

The table, below, summarizes the program results for the API indicators for active projects
against ADF’s targets for the reporting year. Cumulative numbers encompass the period from
the starting date of the project through the end of the reporting year. All monetary values are
presented in U.S. dollars using the exchange rates prevailing at the end of the reporting year.
ADF exceeded all of its targets except for the very ambitious target for the amount of funding
contributions received from strategic partnerships (83% of the target was achieved).

2
     The small, pilot projects for AIDS prevention and mitigation that were funded in FY 2003 and
    2003 were exceptions. These projects were identified through a solicited request for assistance.



                                                  23
Summary of Performance Against Targets (Cumulative figures for Active Projects With
Significant Disbursements)1

    Performance Indicator    FY 2005 Performance         FY 2005 Performance          Percent of Target
                             (Planned)                   (Actual)                     Achieved
Enterprises assisted         83,300                      108,341                      130.1%
Owners and workers in        93,600                      114,597                      122.4%
assisted enterprises2
Women as a percent of        Minimum of 50%              At least 64.9%               138.8%
owners and workers3
Value of loans disbursed     $10.870 million             $22.790 million              209.7%
to MSEs
Percent of loans disbursed   Minimum of 50%              Indicator discontinued       -
to women4
Sales of grantee-operated    $51.664 million             $54.836 million              106.1%
enterprises5
Export revenues              $7.342 million              $33.801 million              460.4%
People receiving             224,100                     Indicator discontinued       -
HIV/AIDS prevention
training4
Women as a percent of        Minimum of 50%              Indicator discontinued       -
those receiving
HIV/AIDS training4
Countries with ADF           No target                   13                           -
support for building the
capacity for
nongovernmental partner
organizations
Number of strategic          No target                   6                            -
partnerships providing
funding contributions
Funding contributions        $4.200 million              $3.494 million               83.2%
received from strategic
partnerships6
1
  Cumulative refers to the period from the starting date of the ADF project through the end of the
reporting year.
2
  To ensure that estimates are conservative, unless there was actual data on number of owners and
workers per enterprise from surveys or grantee records, only one owner/worker was assumed per
enterprise. The actual number of owners and workers is likely to be substantially higher.
3
  To ensure conservative, lower-bound estimates of women beneficiaries, it was assumed that all
of the owners and workers were men when gender-disaggregated data were not available. The
actual proportion of women among ADF’s beneficiaries is higher than reported.
4
  These indicators were discontinued because ADF is phasing out support for projects in



                                                24
microfinance and AIDS prevention and mitigation.
5
  The target included sales of products and services by enterprises and the gross revenues of
credit providers. Since ADF decided to only report enterprise sales in FY 2005, the actual
performance would have exceeded the target by more than the amount shown. The actual does
not include the enterprise sales from the completed projects.
6
  The target pertained to funding contributions leveraged, which are often not received until the
following year. The FY 2005 performance is based on funding contributions received, which is
generally less than the amount leveraged since the funding contributions from strategic
partnerships are growing. As a result, the percent of the target achieved is an underestimate.




                                                 25
                                 LEONARD G. BIRNBAUM AND COMPANY, LLP
                                            CERTIFIED PUBLIC ACCOUNTANTS
                                                  WASHINGTON OFFICE
                                                  6285 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510


                                                       703-922-7622
                                                    FAX: 703-922-8256
LESLIE A. LEIPER                                                                                     WASHINGTON, DC
LEONARD G. BIRNBAUM                                                                               SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                 REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




                                     INDEPENDENT AUDITOR’S REPORT

        To the Board of Directors and the President,
        African Development Foundation:

               We have audited the African Development Foundation’s (ADF) Balance Sheets, Statements
        of Net Cost, Statements of Changes in Net Position, Statements of Budgetary Resources and
        Statements of Financing (Principal Financial Statements) as of, and for the years ended, September
        30, 2006 and 2005; we have examined internal control over financial reporting in place as of
        September 30, 2006; and we have examined compliance with laws and regulations.

                In our opinion, ADF’s 2006 and 2005 Principal Financial Statements are presented fairly in
        all material respects.

               We found no instances of material weakness in the internal controls over financial reporting
        or instances of noncompliance with selected provisions of applicable laws and regulations
        involving ADF’s financial management system.

               Each of these conclusions is discussed in more detail below. This report also discusses the
        scope of our work.

                                   PRINCIPAL FINANCIAL STATEMENTS

               In our opinion, ADF’s 2006 and 2005 Balance Sheets, Statements of Net Cost, Statements
        of Changes in Net Position, Statements of Budgetary Resources, and Statements of Financing,
        including the notes thereto, present fairly, in all material respects, ADF’s financial position as of
        September 30, 2006 and 2005, and the net cost of operations, the changes in net position, and use
        of budgetary resources, and the use of financing, for the years then ended, in conformity with
        accounting principles generally accepted in the United States of America.




                                                            26
                                      INTERNAL CONTROL

        We considered ADF’s internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing our opinion on the Principal Financial
Statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in the Office of Management and Budget’s (OMB) Bulletin 06-03, Audit
Requirements for Federal Financial Statements. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982,
such as those controls relevant to ensuring efficient operations. The objective of our audit was not
to provide assurance on internal control. Consequently, we do not provide an opinion on internal
control.

       The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       •   transactions are properly recorded and accounted for to permit the preparation of
           reliable financial reports and to maintain accountability over assets;

       •   funds, property, and other assets are safeguarded against loss from unauthorized
           acquisition, use, or disposition; and

       •   transactions, including those related to obligations and costs, are executed in
           compliance with laws and regulations that could have a direct and material effect on the
           financial statements and other laws and regulations that the Office of Management and
           Budget (OMB), or ADF management have identified as being significant for which
           compliance can be objectively measured and evaluated.

       •   data that support reported performance measures are properly recorded and accounted
           for to permit preparation of reliable and complete performance information.

        Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards issued by the
American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of internal control that, in our
judgment, could adversely affect ADF’s ability to record, process, summarize, and report financial
data consistent with the assertions of management in the financial statements. Material weaknesses
are reportable conditions in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that errors or irregularities in
amounts, which would be material in relation to the financial statements being audited may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. However, we noted no matters
involving the internal control and its operations that we considered to be material weaknesses as
defined above.




                                                    27
       Finally, with respect to internal control related to performance measures reported in
Management’s Discussion and Analysis, we obtained an understanding of the design of significant
controls relating to the existence and completeness assertions and determined whether those
controls had been placed in operation as required by OMB Bulletin 06-03. Our procedures were not
designed to provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls.

        We noticed certain matters involving the internal control structure and its operation that we
have reported to the ADF’s management in a separate letter dated November 3, 2006.


                     COMPLIANCE WITH LAWS AND REGULATIONS

        ADF’s management is responsible for complying with laws and regulations applicable to
ADF. As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of ADF’s compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statements amounts, and certain other laws and regulations specified in
OMB Bulletin 06-03, including the requirements referred to in FFMIA. We limited our tests of
compliance to these provisions, and we did not test compliance with all laws and regulations
applicable to ADF. The objective of our audit of the Principal Financial Statements, including our
tests of compliance with selected provisions of applicable laws and regulations, was not to provide
an opinion on overall compliance with such provisions. Accordingly, we do not express such an
opinion.

        Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations, which cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof.

        The results of our tests of compliance with the laws and regulations described in the
preceding paragraph, exclusive of FFMIA, disclosed no instances of noncompliance with laws and
regulations that are required to be reported under Government Auditing Standards and OMB-
Bulletin 06-03.

        Under FFMIA, we are required to report whether the ADF’s financial management systems
substantially comply with the federal financial management system requirements, applicable
accounting standards, and the United States Government Standard General Ledger at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA section
803(a) requirements. The results of our tests disclosed no instances where the ADF’s financial
management systems did not substantially comply with the Federal financial management system
requirements, applicable Federal accounting standards, or the United States Government Standard
General Ledger at the transaction level.

      We noted certain instances of noncompliance that we have reported to the ADF’s
management in a separate letter dated November 3, 2006.



                                                  28
                         RESPONSIBILITIES AND METHODOLOGY

ADF management has the responsibility for:

       •   preparing the Principal Financial Statements and other accompanying information in
           conformity with accounting principles generally accepted in the United States of
           America;

       •   establishing and maintaining effective internal control; and

       •   complying with applicable laws and regulations.

        Our responsibility is to express an opinion on these Principal Financial Statements based on
our audit. Auditing standards generally accepted in the United States of America require that we
plan and perform the audit to obtain reasonable assurance about whether the Principal Financial
Statements are free of material misrepresentation and presented fairly in accordance with
accounting principles generally accepted in the United States of America. We considered ADF’s
internal control for the purpose of expressing our opinion on the Principal Financial Statements
referred to above and not to provide an opinion on internal control. We are also responsible for
testing compliance with selected provisions of applicable laws and regulations that may materially
affect the financial statements.

       In order to fulfill these responsibilities, we

          examined, on a test basis, evidence supporting the amounts and disclosures in the
           Principal Financial Statements;

          assessed the accounting principles used and significant estimates made by management;

          evaluated the overall presentation of the Principal Financial Statements;

          obtained an understanding of the internal controls over financial reporting by obtaining
           an understanding of the agency’s internal control, determined whether internal controls
           had been placed in operation, assessed control risk, and performed tests of controls;

          obtained an understanding of the internal controls relevant to performance measures
           included in Management’s Discussion and Analysis, including obtaining an
           understanding of the design of internal controls relating to the existence and
           completeness assertions and determined whether they had been placed in operations;

          obtained an understanding of the process by which the agency identifies and evaluates
           weaknesses required to be reported under FMFIA and related agency implementing
           procedures;

          tested compliance with selected provisions of laws and regulations that may have a



                                                    29
           direct and material affect on financial statements;

          obtained written representations from management; and

          performed other procedures, as we considered necessary in the circumstances.

        Our audits were conducted in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in Government
Auditing Standards and OMB Bulletin 06-03. We believe that our audits provide a reasonable
basis for our opinion.

        The Management’s Discussion and Analysis is not a required part of the Principal Financial
Statements, but are supplementary information required by OMB Circular A-136, Financial
Reporting Requirements, and the Federal Accounting Standards Advisory Board. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However, we did not
audit he information and express no opinion on it.

         This report is intended for the information of the Inspector General of U.S. Agency for
International Development and management of the African Development Foundation. This
restriction is not intended to limit the distribution of this report, which is a matter of public record.


                                                                      /s/

                                               Leonard G. Birnbaum and Company, LLP

Alexandria, Virginia
November 3, 2006




                                                    30
                                      African Development Foundation
                                            BALANCE SHEETS
                                     As of September 30, 2006 and 2005

                                                                                        FY 2006         FY2005
ASSETS

Intragovernmental:
     Fund Balance with Treasury (Note 3)                                            $25,498,947     $23,953,010
Total Intragovernmental                                                              25,498,947      23,953,010

Cash and other monetary assets (Note 3)                                                 4,416,145       3,851,678

General property, plant and equipment – Net (Note 5)                                     769,066         436,535

Advances and Prepayments (Note 4)                                                       3,774,857       3,847,050

TOTAL ASSETS                                                                        $34,459,015     $32,088,273


LIABILITIES

    Accounts Payable (Note 6)                                                       $    502,311    $    284,769
    Accrued Payroll (Note 6)                                                             122,460         107,869
    Accrued Leave    (Note 6)                                                            211,182         193,158

TOTAL LIABILITIES                                                                       $ 835,953   $    585,796

NET POSITION
   Unexpended Appropriations                                                         27,055,611      27,204,690
   Cumulative Results of Operations                                                   6,567,451       4,297,787
   TOTAL NET POSITION                                                               $33,623,062     $31,502,477

TOTAL LIABILITIES AND NET POSITION                                                  $34,459,015     $32,088,273




                             The accompanying notes are an integral part of these statements.

                                                           31
                                   African Development Foundation
                                   STATEMENTS OF NET COST
                          For the Years Ended September 30, 2006 and 2005


                                                                                    FY 2006      FY 2005
PROGRAM COSTS

   Program expenses                                                               $12,930,948   $12,074,695

   Operating Expenses – Public                                                      9,018,800     7,439,268

   Operating Expenses – Intragovernmental                                             188,159      140,630

TOTAL PROGRAM COSTS                                                                22,137,907    19,654,593

NET PROGRAM COSTS                                                                  22,137,907    19,654,593

NET COST OF OPERATIONS                                                            $22,137,907   $19,654,593




                           The accompanying notes are an integral part of these statements.

                                                         32
                                    African Development Foundation
                          STATEMENTS OF CHANGES IN NET POSITION
                           For the Years Ended September 30, 2006 and 2005


                                                         FY 2006                                     FY 2005
                                          Cumulative Results   Unexpended             Cumulative Results   Unexpended
                                            of Operations     Appropriations            of Operations    Appropriations

Beginning Balances                                 $ 4,297,787        $27,204,690                $1,298,534     $27,379,686

Budgetary Financing Sources

   Appropriations Received                                             23,000,000                                19,000,000
   Rescission & Cancelled Resources                                    (1,330,702)                                 (156,189)
   Appropriations Used                             21,818,377         (21,818,377)                19,018,807    (19,018,807)
   Nonexchange Revenue                              2,401,035                                      3,494,409
Other Financial Services
   Imputed Financing                                   188,159                                      140,630

Total Financing Sources                            24,407,571             (149,079)              22,653,846        (174,996)

Net Cost of Operations                            (22,137,907)                                   (19,654,593)

Net Change                                           2,269,664            (149,079)                2,999,253      (174,996)

Ending Balances                                    $ 6,567,451        $ 27,055,611               $ 4,297,787    $27,204,690




                              The accompanying notes are an integral part of these statements.

                                                            33
                                 African Development Foundation
                    COMBINED STATEMENTS OF BUDGETARY RESOURCES
                        For the Years Ended September 30, 2006 and 2005
                                                                                      FY 2006        FY2005

BUDGETARY RESOURCES

    Budget Authority – Appropriation                                                $25,401,035    $22,494,462
    Unobligated Balance Brought Forward, October 1                                    5,800,270      5,669,528

    Adjustments:
      Net Results of Foreign Currency Adjustment PY Obligations                         214,367      2,595,184
      Rescission Current Year                                                          (230,000)      (152,000)
      Permanently not available                                                      (1,100,702)        (4,189)

TOTAL BUDGETARY RESOURCES                                                           $30,084,970    $30,602,985

STATUS OF BUDGETARY RESOURCES

    Obligations Incurred – Current Period                                            23,441,998     24,803,215

    Unobligated balances – available (Note 3)                                         4,104,690      4,645,506

    Unobligated balances – unavailable (Note 3)                                       2,538,282      1,154,264

TOTAL STATUS OF BUDGETARY RESOURCES                                                 $30,084,970    $30,602,985

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

Obligated balance, Net – Beginning of Period                                         22,004,418     20,525,209

Obligated balance, Net – End of Period
    Accounts Payable                                                                    624,771        392,638
    Undelivered Orders                                                               22,647,349     21,611,780

Outlays:
    Disbursements                                                                    21,959,928     20,728,822
    Collections                                                                               -           (500)
Net Outlays                                                                         $21,959,928    $20,728,322




                             The accompanying notes are an integral part of these statements.

                                                           34
                                      African Development Foundation
                                     STATEMENTS OF FINANCING
                             For the Years Ended September 30, 2006 and 2005


                                                                                        FY 2006        FY2005

RESOURCES USED TO FINANCE ACTIVITIES

Obligations Incurred                                                                  $23,441,998    $24,803,215

   Less: Spending Authority from Offsetting Collections & Adjustments                    (214,367)   (2,595,184)
   Net Obligations                                                                     23,227,631    22,208,031

   Financing Imputed for Cost Subsidies                                                   188,159       140,630

Net Other Resources Used to Finance Activities                                            188,159       140,630

Total Resources Used to Finance Activities                                             23,415,790    22,348,661

RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS

   Change in budgetary resources not yet provided (Increase)                             (964,011)    (2,740,128)
   Resources that finance the acquisition of assets                                      (524,556)       (72,630)
   Total resources that do not fund net costs                                          (1,488,567)    (2,812,758)

Total Resources Used to Finance Net Cost of Operations                                 21,927,223    19,535,903

Costs that will not Require Resources in this Period:
  Increase (decrease) in Accrued Annual Leave Liability                                     18,024       (14,151)
  Total Costs that will Not Require Resources in this Period                                18,024       (14,151)

Components not Requiring Resources
                                                                                          192,660       132,841

Total costs that do not require resources                                                 192,660       132,841

NET COST OF OPERATIONS                                                                $22,137,907    $19,654,593




                               The accompanying notes are an integral part of these statements.

                                                             35
                                          African Development Foundation
                                          Notes to the Financial Statements
                                              As of September 30, 2006


Note 1. Organization

    The African Development Foundation (“ADF” or “the Foundation”) is a government-owned corporation
    established by Congress under the African Development Foundation Act in 1980 and began operations in 1984.
    The Foundation is the principal agency of the U.S. Government that supports community-based, self-help
    initiatives that alleviate poverty and promote sustainable economic and social development in Africa at the
    grassroots level. The Foundation’s headquarters are in Washington, D.C. ADF maintains partnerships with local
    organizations, staffed with African professionals, in each of the countries in which it operates. Over the past 21
    years, the Foundation has funded more than 1600 projects in 34 African countries.


Note 2. Significant Accounting Policies

    A. Basis of Presentation

    The accompanying financial statements have been prepared on the accrual basis to report the financial position and
    results of operation in accordance with the concepts and standards contained in the Statements of Federal Financial
    Accounting Standards, as required by the Chief Financial Officers Act of 1990. These statements have been
    prepared from the books and records of the Foundation in accordance with the form and content for federal
    financial statements specified in the Office of Management and Budget (OMB) in OMB Circular No A-136,
    Financial Reporting Requirements, as amended, and the Foundation’s accounting policies, which are summarized
    in this note.

    B. Basis of Accounting

    Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are recognized
    when the funds are expended, without regard to receipt or payment of cash. The preparation of the financial
    statements in conformity with generally accepted accounting principles requires management to make estimates
    and assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent assets and
    liabilities at the date of the financial statements, and the reported amounts of grants and expenses during the
    reporting period. Actual results will invariably differ from those estimates.

    C. Fund Balances with Treasury and Cash

    The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the
    Foundation is authorized to make expenditures and pay liabilities. In addition, commercial, noninterest bearing
    accounts (in local currencies) are maintained with Barclays Bank of Botswana, Citibank Nigeria, and Banco
    Comercial do Atlantico in Cape Verde, Standard Chartered Bank in Ghana, Ecobank in Mali, Citibank and Zenith
    Bank in Nigeria, First National Bank of Swaziland in Swaziland, and Standard Chartered Bank in Zambia to
    process grant funds for those countries. Governments with whom ADF has entered Strategic Partnerships deposit
    donations into these accounts. In general, grants are funds equally with appropriated funds and donated funds.
    ADF controls all disbursements from these accounts.




                                                         36
D. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in local
currencies to facilitate accounting by the recipient organizations. Depending on the nature of the transaction,
foreign currencies are translated into dollars at the actual exchange rate received by the Foundation when the
transaction is made or at the prevailing exchange rate at the beginning of the month in which the transaction
occurred. The value of obligations incurred by the Foundation in foreign currencies varies from time to time
depending on the current exchange rate. The Foundation adjusts the value of its obligations at the end of each
quarter during the year to reflect the prevailing exchange rates. Downward adjustments to prior year obligations
based on favorable foreign currency exchange rates will be made available for obligation if the adjustment occurs
within the Foundation’s authorized two year funding period. Upward adjustment to prior year obligations based on
unfavorable foreign currency exchange rate with the U.S. dollar will be made from funds made available for
upward adjustments, if any, or from currently available funds.

E. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-month
period. Grantees report to the Foundation periodically on the actual utilization of these funds. For purposes of
these financial statements, the Foundation treats disbursements to grantees as advances. The advance is reduced
when the grantee reports expenditures. The total grant advance is the total amount disbursed to the grantee less the
total expended for open (nonexpired) grants as of the reporting date. In order to ensure timeliness in reporting
grantee expenditures, the Foundation will use estimates to complete to calculate the last quarter’s grantee
expenditures based on historical expenditure trends since 1996 and disbursement activity funding that quarter’s
activity. The actual expenditures adjustments will be reported in the following quarter’s financial statements.
Once a grant has closed (expired or cancelled) any excess disbursement is reclassified as an Accounts Receivable.

F. Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as expenses upon receipt
of employee travel vouchers.

G. Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease. Equipment is
depreciated using the straight–line method over useful lives, which is estimated at five years. Equipment with an
acquisition cost of less than $5,000 or less than two years of life is expensed when purchased.

H. Accounts Payable

Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors, for goods and
services received by ADF.

I.   Contingencies

The Foundation is a party in various administrative legal actions and claims brought by or against it. According to
the Foundation’s legal counsel, the likelihood of unfavorable outcomes for all these legal actions and claims is
remote. In the opinion of the Foundation’s management, the ultimate resolution of these proceedings, actions, and
claims will not materially affect the financial position or results of operations of the Foundation.




                                                      37
   J.   Annual, Sick, and Other Leave

   Annual, sick and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
   Foundation calculates the value of the accrued annual leave at the end of the year based on current pay rates.
   Funding for payment of accrued annual leave at the end of the year will be taken from future financing sources.
   Sick leave and other types of nonvested leave are expensed as taken.

   K. Retirement Plan

   The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the Federal Employees
   Retirement System (FERS). The Foundation makes statutory contributions to the Office of Personnel Management
   for employees enrolled in each plan. The Foundation does not report accumulated assets, plan benefits or
   unfunded liabilities, if any, attributable to its employees. The Office of Personnel Management reports such
   amounts.

   L. Trust Fund

   The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift authority.


Note 3. Fund Balance with Treasury

   A. Fund Balances and Funds Held Outside Treasury

   ADF’s Fund Balance with Treasury and Funds Held Outside Treasury as of September 30, 2006 and 2005 are
   summarized below:

                                                                               FY 2006                FY 2005

                         Appropriated Funds                                 $ 25,467,393         $    23,936,136

                         Trust Fund                                                 31,554                 16,874


                         Total Fund Balance with Treasury                  $   25,498,947        $    23,953,010

                         Barclays Bank of Botswana                               1,104,267               1,066,426
                         Standard Chartered Ghana                                1,100,275               1,891,050
                         Citibank Nigeria                                           39,013                  39,013
                         First National Bank Swaziland                             281,088                 193,407
                         Zenith Bank Nigeria                                       226,984                 151,515
                         Standard Chartered Zambia                                 (37,431)                152,869
                         EcoBank Senegal                                           402,017                       -
                         EcoBank Mali                                              987,496                       -
                         Cape Verde                                                312,436                 357,398

                         Total Funds Held Outside Treasury                 $     4,416,145       $       3,851,678

                         Total                                             $   29,915,092        $    27,804,688




                                                         38
   B. Status of Fund Balance With and Outside Treasury                            FY 2006                FY 2005

                          Unobligated Balance

                                   Available                                  $     4,104,690              4,645,506
                                   Unavailable                                      2,538,282              1,154,264

                          Obligated Balance not yet Disbursed                 $    23,272,120        $    22,004,918

                          Total                                               $ 29,915,092           $   27,804,688



Note 4. Advances

   ADF’s advances as of September 30, 2006 and 2005 are summarized below:

                                                                                  FY 2006                 FY2005

                          Grants                                             $      3,319,149        $     3,471,739
                          Travel                                                      230,821                 42,323
                          Prepayments                                                 224,887                332,988

                          Total                                              $      3,774,857        $     3,847,050

Note 5. Property, Plant and Equipment, Net

   Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service life is two years or
   more. Equipment with an acquisition cost of less than $5,000 or less than two years of life is expensed when
   purchased.

        ADF’s property, plant and equipment as of September 30, 2006 and 2005

                                                                                  FY 2006                FY 2005

                 Equipment, at cost                                          $      1,818,078        $     1,365,114
                 Accumulated Depreciation                                          (1,049,012)              (928,579)
                 Equipment, net                                              $        769,066        $       436,535




                                                           39
Note 6. Accounts Payable and Other Liabilities

    Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors for goods and
    services received by ADF, and accrued employee payroll and annual leave.

                                                                                 FY 2006               FY 2005

                          Commercial vendors                                $       502,311        $       284,769
                          Accrued employee payroll and leave                        333,642                301,027


                          Total                                             $       835,953        $       585,796


Note 7. Leases
    The space in which the Foundation Headquarters operates is leased by the Foundation through a multi-year lease
    until April 30, 2008. The total amount of funding commitment is detailed in Table 1.
    ADF also enters into year-to-year leases in the countries with established Resident Representative offices.


                                             TABLE 1 – ADF Headquarters’
                                        Space Lease – Total Future Payment Due


                               Fiscal Year                        Dates                          Amount
                               Year 1         October 1, 2006 – September 30, 2007                 $391,842
                               Year 2         October 1, 2007 – April 30, 2008                     $232,874


                                  TOTAL                                                            $624,716

Note 8. Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
        States Government.

    The 2008 Budget of the United States Government, with the Actual Column completed for fiscal year 2006, has
    not yet been published as of the date of these financial statements. The Budget is currently expected to be
    published and delivered to the Congress in February 2007. The 2007 Budget of the United States Government,
    with the Actual Column completed for fiscal year 2005, has been reconciled.




                                                          40
                                                                               Appendix I


Management
Comments

November 15, 2006
Mr. Donald Gambatesa
Inspector General for Audit
Office of the Inspector General, U.S.A.I.D.
1300 Pennsylvania Avenue
Washington, D.C. 20523-8100

Re: Audit Report of the 2006 Financial Statement

Dear Mr. Gambatesa:

We have received the audit report supplied by Leonard G. Birnbaum and Company, including the
opinion on the African Development Foundation’s (ADF) fiscal years 2005 and 2006 comparative
financial statements, internal controls status, and compliance with applicable laws and regulations.
We are pleased to note that all five comparative financial statements (Balance Sheet, Statement of
Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources, and Statement
of Financing) have continued to receive unqualified opinions. Thank you and your team as well as
Birnbaum and Company for working closely with us during the audit process.

We at the African Development Foundation recognize the importance of accountability and public
disclosure and our goal is to achieve excellence in our financial management systems. We are
committed to resolving the issues identified in your report and have dedicated the staff and resources
to ensure our systems are in full compliance. We look forward to working with you and your staff
on the 2007 audit. Any questions may be addressed to Martha C. Edmondson, Chief Financial
Officer at ADF or to me.

Sincerely,

/s/

Rodney J. MacAlister
President


1400 Eye Street, N.W. · Tenth Floor · Washington, D.C. 20005 · (202) 673-3916 · fax: (202) 673-
3810 · email: info@adf.gov


                                                 1
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
